No. ______________
In the

Supreme Court of the United States
BAY POINT PROPERTIES, INCORPORATED,

Petitioner,

v.
MISSISSIPPI TRANSPORTATION COMMISSION;
MISSISSIPPI DEPARMENT OF TRANSPORTATION;
DICK HALL, in his capacity as Mississippi Transportation Commissioner;
MIKE TAGERT, in his capacity as Mississippi Transportation Commissioner;
TOM KING, in his capacity as Mississippi Transportation Commissioner;
WAYNE H. BROWN, in his capacity as former Mississippi Transportation
Commissioner; MELINDA MCGRATH, in her capacity as Executive Director of the
Mississippi Department of Transportation; LARRY BROWN, in his capacity as
former Executive Director of Mississippi Department of Transportation, also known
as Butch; DANIEL B. SMITH, in his capacity as Administrator of the Right-of-Way
Division of Mississippi Department of Transportation,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES

J. DAVID BREEMER
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: jbreemer@pacificlegal.org
Counsel for Petitioner Bay Point Properties, Incorporated

To the Honorable Samuel A. Alito, Jr., Justice of the Supreme Court of the United
States and Circuit Justice for the Fifth Circuit:
Pursuant to Supreme Court Rule 13.5, Petitioner Bay Point Properties,
Incorporated, respectfully requests an extension of time of twenty-five (25) days to
file a Petition for Writ of Certiorari in this Court. Granting this motion would extend
the deadline for the filing of a Petition to December 20, 2019.
The Fifth Circuit Court of Appeals issued its judgment on August 27, 2019. A
Petition for Certiorari is therefore presently due on or about November 25, 2019. This
application for an extension of time is being filed more than ten (10) days prior to that
date.
This case arises under the Fifth Amendment to the United States Constitution.
The opinion of the Fifth Circuit Court of Appeals interpreting that constitutional
provision is reported at 937 F.3d 454 (5th Cir. 2019), a copy of which is attached
hereto as Attachment 1. This Court has appellate jurisdiction over the case pursuant
to 28 U.S.C. § 1257(a).
Petitioner’s lead counsel, Mr. J. David Breemer, requires extra time to file a
Petition in this case due to a conflicting workload. Counsel is currently involved in
briefing another case in this Court, Smyth v. Town of Falmouth, Case No. 19-223.
Counsel is also briefing a case in the Ninth Circuit Court of Appeals. See Ballinger v.
City of Oakland, Ninth Circuit Case No. 19-16550, and is in the midst of motion work
in an active federal case in the District Court for the Eastern District of North
Carolina, see Zito v. North Carolina Coastal Commission, Case No. 2:19-cv-00011-D.

-1-

Due to these time constraints, and in order to cogently prepare and draft a
Petition in this case, Petitioner requests an additional twenty-five (25) days of time
to file a Petition for Writ of Certiorari, allowing the Petition to be filed on or before
December 20, 2019.
Petitioner has conferred with opposing counsel about this application and
opposing counsel has stated that Respondents do not oppose this motion.
Therefore, Petitioner respectfully requests that an order be entered extending
their time to file a Petition for a Writ of Certiorari up to and including December 20,
2019.
Dated: October 17, 2019.
Respectfully submitted,

J. D ~...-rJI
Counsel o ec rd
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: jbreemer@pacificlegal.org
Counsel for Petitioner Bay Point Properties, Incorporated

-2-

ATTACHMENT 1

Bay Point Properties, Incorporated v. Mississippi Transportation..., 937 F.3d 454 (2019)

937 F.3d 454
United States Court of Appeals, Fifth Circuit.
BAY POINT PROPERTIES,
INCORPORATED, Plaintiff-Appellant
v.
MISSISSIPPI TRANSPORTATION COMMISSION;
Mississippi Department of Transportation;
Dick Hall, in his capacity as Mississippi
Transportation Commissioner; Mike Tagert,
in his capacity as Mississippi Transportation
Commissioner; Tom King, in his capacity as
Mississippi Transportation Commissioner; Wayne
H. Brown, in his capacity as former Mississippi
Transportation Commissioner; Melinda McGrath, in
her capacity as Executive Director of the Mississippi
Department of Transportation; Larry Brown,
in his capacity as former Executive Director
of Mississippi Department of Transportation,
also known as Butch; Daniel B. Smith, in
his capacity as Administrator of the Rightof-Way Division of Mississippi Department
of Transportation, Defendants-Appellees
No. 18-60674
|
FILED August 27, 2019
Synopsis
Background: After state court jury found Mississippi
state officials violated Takings Clause by exceeding
scope of easement over private property and jury
awarded considerably less damages than property owner
sought, property owner brought action against Mississippi
Transportation Commission in federal court. The United
States District Court for the Southern District of Mississippi,
Halil Suleyman Ozerden, J., 2018 WL 3977879, dismissed
action. Property owner appealed.

The Court of Appeals, Ho, Circuit Judge, held that
Mississippi Transportation Commission was entitled to
sovereign immunity.
Affirmed.

*455 Appeal from the United States District Court for
the Southern District of Mississippi, Halil S. Ozerden, U.S.
District Judge
Attorneys and Law Firms
Charles Sterling Lambert, Jr., Baton Rouge, LA, William
Alex Brady, II, Brady Law Firm, PLLC, Long Beach, MS, for
Plaintiff-Appellant.
Wilson Douglas Minor, Esq., Assistant Attorney General,
Office of the Attorney General for the State of Mississippi,
Jackson, MS, Christopher Martin Howdeshell, I, Pittman Law
Firm, Hattiesburg, MS, for Defendants-Appellees.
Before DAVIS, HO, and ENGELHARDT, Circuit Judges.
Opinion
JAMES C. HO, Circuit Judge:
A state court jury found that Mississippi state officials
violated the Takings Clause by exceeding the scope of a
state easement on private property. But the jury granted
a monetary award considerably lower than the amount of
“just compensation” sought *456 by the property owner.
So the property owner, after losing on appeal in state court
and unsuccessfully seeking certiorari in the U.S. Supreme
Court, brought this suit in federal court. The State moved to
dismiss on sovereign immunity grounds, and the district court
granted the motion in an exhaustive opinion. We agree and
accordingly affirm.
While this case was pending on appeal, the Supreme Court
issued its decision in Knick v. Township of Scott, ––– U.S.
––––, 139 S. Ct. 2162, 204 L.Ed.2d 558 (2019). In its
supplemental briefing, the property owner contends, in effect,
that Knick overturns prior sovereign immunity law in cases
arising under the Takings Clause. But we find nothing in
Knick to support that claim. 1
1

In its original brief, the property owner asked us to
“address the tension” between state sovereign immunity
and the right to just compensation under the Fifth and
Fourteenth Amendments. That determination, however,
is one for the Supreme Court—not this panel. See, e.g.,
McMurtray v. Holladay, 11 F.3d 499, 504 (5th Cir. 1993)
(holding that takings claims under the Fifth Amendment
are “barred because under the Eleventh Amendment, a
citizen may not sue his own state in federal court”) (citing
U.S. CONST. amend. XI; Pennhurst State Sch. & Hosp.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Bay Point Properties, Incorporated v. Mississippi Transportation..., 937 F.3d 454 (2019)

v. Halderman, 465 U.S. 89, 98, 104 S.Ct. 900, 79 L.Ed.2d
67 (1984)).

It is well established under the Supreme Court’s sovereign
immunity precedents that there are “only two circumstances
in which an individual may sue a State”: (1) Congressional
abrogation of state sovereign immunity consistent with the
Enforcement Clause of the Fourteenth Amendment; or (2)
State waiver of immunity. See Coll. Sav. Bank v. Fla.
Prepaid Postsecondary Educ. Expense Bd., 527 U.S. 666,
670, 119 S.Ct. 2219, 144 L.Ed.2d 605 (1999). As the district
court correctly concluded, neither of these circumstances are
present in this case.
Nothing in Knick alters these bedrock principles of sovereign
immunity law. To begin with, the Court did not even have
occasion to reconsider sovereign immunity law in Knick,
because that case involved a suit against a locality, and it
is well established that local governments are not entitled to
the sovereign immunity enjoyed by states. See, e.g., N. Ins.
Co. of N.Y. v. Chatham County, 547 U.S. 189, 193, 126 S.Ct.
1689, 164 L.Ed.2d 367 (2006) (“[T]his Court has repeatedly
refused to extend sovereign immunity to counties.”); Jinks
v. Richland County, 538 U.S. 456, 466, 123 S.Ct. 1667, 155
L.Ed.2d 631 (2003) (“[M]unicipalities, unlike States, do not
enjoy a constitutionally protected immunity from suit.”).
Nor does anything in Knick even suggest, let alone
require, reconsideration of longstanding sovereign immunity
principles protecting states from suit in federal court. Rather,
Knick held only that “a property owner has a claim for a
violation of the Takings Clause” cognizable in federal court
End of Document

“as soon as a government takes his property for public use
without paying for it.” 139 S. Ct. at 2170. Accordingly, Knick
did away with the previous rule requiring “a property owner
[to] pursue state procedures for obtaining compensation
before bringing a federal suit.” Id. at 2173.
In other words, to the extent that Knick has any effect
on suits against state governments, the Court simply put
takings claims against state governments on equal footing
with claims against the federal government. See id. at 2170
(“We have long recognized that property owners may bring
Fifth Amendment claims against the Federal Government as
soon as their property has been taken.”). And nobody *457
disputes that takings claims against the federal government
require the waiver of sovereign immunity contained in the
Tucker Act. See id. (citing 28 U.S.C. § 1491(a)(1)); id. at 2186
(Kagan, J., dissenting) (“The Tucker Act waives the Federal
Government’s sovereign immunity.”).
Not surprisingly, then, the Tenth Circuit has already held that
Knick does not alter traditional principles of state sovereign
immunity. See, e.g., Williams v. Utah Dep’t of Corr., 928 F.3d
1209, 1214 (10th Cir. 2019) (“Knick did not involve Eleventh
Amendment immunity, which is the basis of our holding in
this case. Therefore, we hold that the takings claim against the
[Utah Department of Corrections] must be dismissed based
on Eleventh Amendment immunity.”). We therefore affirm.
All Citations
937 F.3d 454
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

CERTIFICATE OF SERVICE
I hereby certify that three copies of Petitioner's Application for Extension of
Time to File Petition for Writ of Certiorari were served this 17th day of October, 2019,
via first-class mail, postage pre-paid, and e-mail upon the party required to be served
pursuant to this Court's Rule 29.3, namely the following:
Wilson D. Minor
Special Assistant Attorney General
Office of the Attorney General
for the State of Mississippi
550 High Street, Suite 1200
Walter Sillers Building
Jackson, MS 39201
Telephone: (601) 359-4072

Email: wmino@ago.state.ms.us

Christopher M. Howdeshell
Pittman Howdeshell, PLLC
140 Mayfair Road, Suite 400 (39402)
Post Office Drawer 17138
Hattiesburg, MS 39404-7138
Telephone: (601) 264-3314

Email: chris@pittmanlawfirm.net

EMER

